Semiannual Report to Congress
April 1, 2010 - September 30, 2010
OIG VISION
“We are agents of positive change striving for continuous
improvement in our agency’s management and program operations.”



NRC-OIG MISSION
NRC-OIG’s mission is to (1) independently and objectively conduct
and supervise audits and investigations relating to NRC’s programs
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Center Photo: Foundation excavation for
Vogtle Unit 4 showing Vogtle Units 1 and 2
in background with water vapor rising from
cooling towers. (March, 2010)
Photo courtesy of Southern Company.

Right Photo: Construction for the module
assembly building at the plant site for
Vogtle Units 3 and 4. (April, 2010)
Photo courtesy of Southern Company.

Left Photo: Construction plant site for
Vogtle Units 3 and 4. (October, 2009)
Photo courtesy of Southern Company.
A Message From
The Inspector General
I am pleased to present this Semiannual Report to Congress on the activities
and accomplishments of the Nuclear Regulatory Commission (NRC) Office
of the Inspector General (OIG) from April 1, 2010, to September 30, 2010.

Our work reflects the legislative mandate of the Inspector General Act, which
is to identify and prevent fraud, waste, and abuse through the conduct of audits
and investigations relating to NRC programs and operations. The audits and investigations
highlighted in this report demonstrate our commitment to ensuring integrity and efficiency in
NRC’s programs and operations.

NRC’s core mission is to ensure the protection of public health and safety and the environment.
In addition to ongoing agency activities to maintain the safety and security of the existing fleet of
reactors, NRC’s workload has increased with the receipt of applications for new reactor designs and
new nuclear power plants to address the Nation’s future electric power generation needs. Our cover
for this Semiannual Report presents photographs of the existing Vogtle nuclear power plant Units
1 and 2 and the construction site for the new Vogtle Units 3 and 4. These photographs reflect the
agency’s dual responsibility for the oversight of existing nuclear power plants, and the construction
of new plants.

During this reporting period, the NRC OIG continued its focus on critical agency operations such as
NRC’s vendor inspection program, oversight of irradiator security, the deployment of the National
Source Tracking System, and the management of agreements with Department of Energy laboratories.
Working with NRC to identify risks and vulnerabilities to alert them to problems affords the agency
the opportunity to take any necessary corrective action.

During this semiannual period, we issued eight program audit reports, two evaluation reports, and
analyzed one contract audit report. As a result of this work, OIG made a number of recommendations
to improve the effective and efficient operation of NRC’s safety, security, and corporate management
programs. OIG also opened 23 investigations, and completed 38 cases. Two of the open cases were
referred to the Department of Justice, and 22 allegations were referred to NRC management for action.

OIG remains committed to the integrity, efficiency, and effectiveness of NRC programs and
operations, and our audits, investigations, and other activities highlighted in this report demonstrate
this ongoing commitment. My office is dedicated to maintaining the highest possible standards of
professionalism and quality in its audits and investigations. I would like to acknowledge our auditors,
investigators, and support staff for their superior work and commitment to the mission of our office.

Finally, OIG’s success would not be possible without the collaborative efforts between my staff and
agency managers to address OIG findings and to implement the corrective actions recommended by
my office. I wish to thank them for their dedication and support, and I look forward to their continued
cooperation as we work together to ensure the integrity of agency operations.



Hubert T. Bell
Inspector General

                                                                     April 1, 2010 - September 30, 2010   i
                          Foundation excavation for Vogtle Unit 4. Photo courtesy of Southern Company


ii   NRC OIG Semiannual Report to Congress
Contents
    Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
    Overview of the NRC and the OIG .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1

    	     NRC’s Mission .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1

    	     OIG History, Mission, and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

    		         Inspector General History .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2

    		         OIG Mission and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

    OIG Programs and Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  4
    	     Audit Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  4

    	     Investigative Program .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

    	     General Counsel Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  6

    		         Regulatory Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  6

    	     Other Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  7

    		         Support of the Inspector General Community in Training .  .  .  .  .  .  .  7

    		         NRC OIG Receives Best-In-Class Award .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  8

    	     Management and Performance Challenges  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  9

    Audits 	 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10
    	     Audit Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10

    	     Audits in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26

    Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
    	     Investigative Case Summaries  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33

    Summary of OIG Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
    	     Investigative Statistics .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39

    	     Audit Listings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

    	     Audit Resolution Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43

    Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46
    Reporting Requirements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47
    Appendix  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48

                                                                                        April 1, 2010 - September 30, 2010         iii
                          Foundation excavation for Vogtle Unit 4. Photo courtesy of Southern Company


iv   NRC OIG Semiannual Report to Congress
Highlights

The following two sections highlight selected audits and investigations completed during
this reporting period. More detailed summaries appear in subsequent sections of this
report.

AUDITS
• 	 The Energy Reorganization Act of 1974 authorized the NRC to use the
    Department of Energy’s (DOE) research facilities and services to assist
    NRC in conducting its mission. In 1978, NRC and DOE executed a
    Memorandum of Understanding that established the policy governing the
    relationship between NRC and DOE for NRC-funded research at DOE
    laboratories. There are currently 17 DOE laboratories nationwide and
    all are managed and operated by non-Government entities under contract
    with DOE. As of July 13, 2009, NRC had 186 active agreements with DOE
    laboratories totaling approximately $365 million. The audit objective was
    to determine whether NRC has established and implemented an effective
    system of internal control over the placement and monitoring of work with
    DOE laboratories.

•	 In recent years, the Federal Government has taken steps to increase opportu-
   nities for employees to telework. Telework is defined as work arrangements
   in which an employee regularly performs officially assigned duties at home or
   other worksites geographically convenient to the employee’s residence.
   Telework is also a tool that can be used to ensure continuity of essential
   Government functions in the event of national or local emergencies. The
   audit objectives were to determine NRC’s readiness to have staff telework
   under emergency situations, the adequacy of internal controls associated
   with the telework program, and if NRC’s telework program complies with
   relevant law and Office of Personnel Management guidance.

•	 In 1977, Congress enacted the Government in the Sunshine Act (the
   Sunshine Act) with the goal of enhancing openness in the decisionmaking
   process of Federal Government agencies. The Sunshine Act states that when
   Federal agency heads deliberate on behalf of their respective organizations,
   these meetings must be open to the public. However, the Sunshine Act
   provides exemptions allowing for certain meetings to be closed to the public.
   Each Federal agency is required to document the reasons why a meeting was
   closed; give notice of the closed meeting; keep transcripts, electronic record-
   ings, or minutes of the closed meeting; and report to Congress annually on
   compliance with these requirements. The audit objective was to determine if
   NRC’s process for conducting meetings that are closed to the public hinders
   the transparent transaction of nuclear regulation.




                                                                        April 1, 2010 - September 30, 2010   v
                    •	 The National Source Tracking System (NSTS) is a centralized database
                       developed and managed by NRC to help NRC and Agreement State
                       regulatory agencies account for select categories of high-risk radiological
                       sources held by approximately 1,300 licensees. Specifically, NSTS is used to
                       monitor transactions and inventories of nationally tracked sources as defined
                       in Title 10 of the Code of Federal Regulations, Part 20, Section 1003 (10
                       CFR 20.1003). These nationally tracked sources include Category 1 and 2
                       radiological sealed sources that have industrial, medical, and research uses.
                       The International Atomic Energy Agency (IAEA) characterizes Category 1
                       and 2 sources as radiological materials that pose the greatest health risks if
                       not safely managed or securely protected. The audit’s objective was to
                       determine if the National Source Tracking System meets its required
                       operational capabilities.

                    •	 Irradiators are devices that expose products, such as food and medical
                       supplies, to radiation for sterilization and other purposes. Radiation is
                       achieved by the exposure to high-risk radioactive materials, such as Cobalt-60
                       and Cesium-137. Commercial firms, as well as State-run organizations such
                       as hospitals and universities, operate irradiators and are licensed to possess
                       the radioactive materials used in these devices. NRC and NRC Agreement
                       States regulate the safe and secure use of these irradiators and other radioac-
                       tive materials. Nationwide, there are approximately 50 licensees that operate
                       about 50 large irradiators that contain more than 10,000 curies of Cobalt-60.
                       Additionally, there are approximately 590 licensees that operate about 1,100
                       smaller type irradiators that use lesser quantities of radioactive materials.
                       The purpose of this audit was to determine the adequacy of NRC’s oversight
                       of industrial irradiator security.

                    •	 Wireless devices, services, and technologies are commonplace in all aspects
                       of our lives and offer potential cost-savings and convenience over wired
                       solutions. Wireless devices include any electronic device that can commu-
                       nicate with other devices without being physically attached to those devices.
                       Most wireless devices communicate through radio frequencies. A wireless
                       service provides access to services such as telephone, e-mail, calendaring,
                       and messaging using wireless devices. Wireless technologies include mobile
                       equipment, such as cellular telephones, BlackBerries, and wireless networking.
                       The objective of this assessment was to determine if NRC’s wireless devices
                       met required operational capabilities and security requirements.




vi   NRC OIG Semiannual Report to Congress
•	 NRC endeavors to protect the public health and safety and the environ-
   ment by overseeing vendor compliance with NRC’s regulations for assuring
   the integrity of domestic and global parts and services supplied to nuclear
   power reactors. NRC directly oversees compliance by conducting reactive
   and routine inspections of vendors, and indirectly through licensee audits of
   vendors and through American Society of Mechanical Engineers (ASME)
   standards. Vendors manufacture a range of components such as fasteners,
   pumps, valves, and reactor vessels, as well as provide design, engineering,
   and construction services. While most vendors do not hold NRC licenses,
   they are nonetheless bound through contracts with licensees, applicants,
   or other vendors to comply with NRC’s quality assurance regulations
   contained in NRC regulations. The audit objective was to assess NRC’s
   regulatory approach for ensuring the integrity of domestic and foreign
   safety-related parts and services supplied to current or prospective nuclear
   power reactors.

•	 NRC has promulgated regulations requiring that its licensees implement
   an access authorization program to provide high assurance that individuals
   who are granted unescorted access to nuclear power plants and those
   individuals who maintain access to these sites are trustworthy and reli-
   able and do not constitute an unreasonable risk to public health and safety,
   including the potential to commit radiological sabotage. NRC inspects
   licensee access authorization programs to verify that licensees are imple-
   menting programs in accordance with NRC regulations and the facilities’
   security plans. Sharif Mobley was arrested and charged in Yemen as a
   suspected member of al Qaeda in March 2010. Prior to his arrest, Mobley
   worked as a general laborer at six nuclear power plants in the United States
   between 2002 and 2008. Mobley’s arrest prompted congressional interest
   and in early 2010, following Mobley’s arrest, OIG received a congressional
   request to conduct a review of NRC’s process requirements for licensees
   granting unescorted access at nuclear power plants. The purpose of this
   audit was to determine the effectiveness of NRC’s oversight of nuclear
   power plant access authorization programs.




                                                                April 1, 2010 - September 30, 2010   vii
                    INVESTIGATIONS
                    • 	 OIG conducted an investigation into a leak that occurred in the essential
                        service water system (ESW), a significant safety system, at the Byron Nuclear
                        Station (Byron) on October 19, 2007. This leak necessitated a 12-day
                        shutdown of both reactors located at that site. This was a significant event,
                        and NRC initiated a Special Inspection Team soon after the shutdown to
                        evaluate licensee actions surrounding the ESW failure.

                    •	 OIG conducted an investigation based on a letter sent to the Department of
                       Homeland Security (DHS) OIG from four members of Congress regarding
                       implementation of a new emergency notification system (ENS) at Indian
                       Point Nuclear Power Plant, an NRC licensee. The letter expressed concern
                       about the oversight exercised by the Federal Emergency Management
                       Agency (FEMA) and the relationship between FEMA and NRC during the
                       implementation of modifications of backup power to the ENS, which was
                       required by the Energy Policy Act of 2005.

                    •	 OIG conducted an investigation based on a request from a former NRC
                       Chairman concerning the development of an NRC SECY paper regarding
                       options for disposal of depleted uranium. Specifically, OIG was requested to
                       review whether individual NRC staff members involved in the development
                       of the SECY felt they could pursue the agency’s differing professional view
                       and differing professional opinion program if they disagreed with the SECY
                       paper presented to the NRC Commission.

                    •	 OIG conducted an investigation into an allegation concerning the legality
                       of an NRC contract with Information Systems Laboratories, Inc. (ISL), to
                       review applications submitted to the NRC by utility companies requesting
                       to build new nuclear power plants. The allegation questioned the legality
                       of NRC contracting out activities which were “inherently governmental” in
                       nature.

                    •	 OIG completed an investigation into an allegation that Constellation Energy
                       Nuclear Group (CENG) withheld material financial information from NRC
                       regarding its corporate restructuring with Electricite de France when it
                       submitted an application for an indirect license transfer. Specifically, OIG
                       examined whether NRC staff were pressured or acted inappropriately in
                       connection with the agency’s decision to award the transfer license to CENG,
                       or had knowledge that the license application was incomplete.




viii   NRC OIG Semiannual Report to Congress
Overview of the NRC and the OIG
NRC’S MISSION
NRC was formed in 1975, in accordance with the Energy Reorganization Act of
1974, to regulate the various commercial and institutional uses of nuclear mate-
rials. The agency succeeded the Atomic Energy Commission, which previously
had responsibility for both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and
safety, promote the common defense and security, and protect the environment.
NRC’s regulatory mission covers three main areas:

• 	 Reactors - Commercial reactors that generate
    electric power and research and test reactors used
    for research, testing, and training.

• 	 Materials - Uses of nuclear materials in medical,
    industrial, and academic settings and facilities that
    produce nuclear fuel.

• 	 Waste - Transportation, storage, and disposal of
    nuclear materials and waste, and decommissioning
    of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three
principal regulatory functions: (1) establish standards and regulations, (2) issue
licenses for nuclear facilities and users of nuclear materials, and (3) inspect
facilities and users of nuclear materials to ensure compliance with the require-
ments. These regulatory functions relate both to nuclear power plants and other
uses of nuclear materials – like nuclear medicine programs at hospitals, academic
activities at educational institutions, research, and such industrial applications as
gauges and testing equipment.

The NRC maintains a current Web site and a public document room at
NRC headquarters in Rockville, Maryland, and holds public hearings, public
meetings in local areas and at NRC offices, and discussions with individuals
and organizations.




                                                                    April 1, 2010 - September 30, 2010   1
                   OIG HISTORY, MISSION, AND GOALS
                   Inspector General History
                   In the 1970s, Government scandals, oil shortages, and stories of corruption
                   covered by newspapers, television, and radio stations took a toll on the American
                   public’s faith in its Government. The U.S. Congress knew it had to take action
                   to restore the public’s trust. It had to increase oversight of Federal programs
                   and operations. It had to create a mechanism to evaluate the effectiveness
                   of Government programs. And, it had to provide an independent voice for
                   economy, efficiency, and effectiveness within the Federal Government that
                   would earn and maintain the trust of the American people.

                   In response, Congress passed the landmark legislation known as the Inspector
                   General Act (IG Act), which President Jimmy Carter signed into law in 1978.
                   The IG Act created independent Inspectors General (IG), who would protect the
                   integrity of Government; improve program efficiency and effectiveness; prevent
                   and detect fraud, waste, and abuse in Federal agencies; and keep agency heads,
                   Congress, and the American people fully and currently informed of the findings
                   of IG work.

                   Today, the IG concept is a proven success. The IGs continue to deliver signifi-
                   cant benefits to our Nation. Thanks to IG audits and investigations, billions
                   of dollars have been returned to the Federal Government or have been better
                   spent based on recommendations identified through those audits and investiga-
                   tions. IG investigations have also contributed to the prosecution of thousands
                   of wrongdoers. In addition, the IG concepts of good governance, accountability,
                   and monetary recovery encourages foreign governments to seek advice from IGs,
                   with the goal of replicating the basic IG principles in their own governments.




2   NRC OIG Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) indepen-
dently and objectively conduct and supervise audits and investigations relating to
NRC programs and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC programs and
operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan1 that includes
the major challenges and critical risk areas facing NRC.

The plan identifies OIG’s priorities and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals, which generally
align with NRC’s mission and goals:

     1. S
         trengthen NRC’s efforts to protect public health and safety and the
        environment.

     2. E
         nhance NRC’s efforts to increase security in response to an evolving
        threat environment.

     3. I ncrease the economy, efficiency, and effectiveness with which NRC
         manages and exercises stewardship over its resources.




1
    OIG’s current Strategic Plan covers the period FY 2008 through FY 2013.




                                                                              April 1, 2010 - September 30, 2010   3
OIG Programs and Activities
                   AUDIT PROGRAM
                   The OIG Audit Program focuses on management and financial operations;
                   economy or efficiency with which an organization, program, or function is
                   managed; and whether the programs achieve intended results. OIG auditors
                   assess the degree to which an organization complies with laws, regulations, and
                   internal policies in carrying out programs, and they test program effectiveness as
                   well as the accuracy and reliability of financial statements. The overall objective
                   of an audit is to identify ways to enhance agency operations and promote greater
                   economy and efficiency. Audits comprise four phases:

                   •	 Survey phase - An initial phase of the audit process is used to gather
                      information, without detailed verification, on the agency’s organization,
                      programs, activities, and functions. An assessment of vulnerable areas
                      determines whether further review is needed.

                   •	 Verification phase - Detailed information is obtained to verify findings and
                      support conclusions and recommendations.

                   •	 Reporting phase - The auditors present the information, findings,
                      conclusions, and recommendations that are supported by the evidence
                      gathered during the survey and verification phases. Exit conferences are held
                      with management officials to obtain their views on issues in the draft audit
                      report. Comments from the exit conferences are presented in the published
                      audit report, as appropriate. Formal written comments are included in their
                      entirety as an appendix in the published audit report.

                   •	 Resolution phase - Positive change results from the resolution process in
                      which management takes action to improve operations based on the
                      recommendations in the published audit report. Management actions
                      are monitored until final action is taken on all recommendations. When
                      management and OIG cannot agree on the actions needed to correct a
                      problem identified in an audit report, the issue can be taken to the NRC
                      Chairman for resolution.

                   Each September, OIG issues an Annual Plan that summarizes the audits planned
                   for the coming Fiscal Year. Unanticipated high priority issues may arise that
                   generate audits not listed in the Annual Plan. OIG audit staff continually
                   monitor specific issues areas to strengthen OIG’s internal coordination and
                   overall planning process. Under the OIG Issue Area Monitor (IAM) program,
                   staff designated as IAMs are assigned responsibility for keeping abreast of major
                   agency programs and activities. The broad IAM areas address nuclear reactors,
                   nuclear materials, nuclear waste, international programs, security, information
                   management, and financial management and administrative programs.




4   NRC OIG Semiannual Report to Congress
INVESTIGATIVE PROGRAM
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to
NRC programs and activities, investigating misconduct by NRC employees,
interfacing with the Department of Justice on OIG-related criminal matters, and
coordinating investigations and other OIG initiatives with Federal, State, and
local investigative agencies and other OIGs. Investigations may be initiated as a
result of allegations or referrals from private citizens; licensee employees; NRC
employees; Congress; other Federal, State, and local law enforcement agencies;
OIG audits; the OIG Hotline; and IG initiatives directed at areas bearing a high
potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, OIG’s
Investigative Program directs much of its resources and attention on investiga-
tions of alleged conduct by NRC staff that could adversely impact matters related
to health and safety. These investigations may address allegations of:

•	 Misconduct by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and
   safety.

•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure by NRC to appropriately transact nuclear regulation publicly and
   candidly and to openly seek and consider the public’s input during the
   regulatory process.

•	 Conflicts of interest involving NRC employees and NRC contractors and
   licensees, including such matters as promises of future employment for
   favorable or inappropriate treatment and the acceptance of gratuities.

•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A
primary focus is electronic-related fraud in the business environment. OIG is
committed to improving the security of this constantly changing electronic busi-
ness environment by investigating unauthorized intrusions and computer-related
fraud, and by conducting computer forensic examinations. Other proactive
initiatives focus on determining instances of procurement fraud, theft of prop-
erty, Government credit card abuse, and fraud in Federal programs.




                                                                 April 1, 2010 - September 30, 2010   5
                   GENERAL COUNSEL ACTIVITIES
                   Regulatory Review
                   Pursuant to the Inspector General Act, Title 5 U.S. Code, Appendix 3, Section
                   4(a)(2), OIG reviews existing and proposed legislation, regulations, policy, and
                   implementing Management Directives (MD), and makes recommendations to
                   the agency concerning their impact on the economy and efficiency of agency
                   programs and operations.

                   Regulatory review is intended to provide assistance and guidance to the agency
                   prior to the concurrence process so as to avoid formal implementation of poten-
                   tially flawed documents. The OIG does not concur with, or object to, the agency
                   actions reflected in the regulatory documents, but rather offers comments and
                   requests responsive action within specified timeframes.

                   Comments provided in regulatory review reflect an objective analysis of the
                   language of proposed agency statutes, directives, regulations, and policies
                   resulting from OIG insights from audits, investigations, and historical data and
                   experience with agency programs. OIG’s review is structured so as to identify
                   vulnerabilities and offer additional or alternative choices.

                   From April 1, 2010, through September 30, 2010, OIG reviewed more than 250
                   agency documents, including approximately 185 Commission papers (SECYs)
                   and Staff Requirements Memoranda, and 65 Federal Register Notices, regulatory
                   actions, and statutes.

                   To effectively track the agency’s response to OIG regulatory review, comments
                   include a request for written replies within 90 days, with either a substantive
                   reply or status of issues raised by OIG.

                   During this reporting period, the OIG reviewed 18 MDs on technical issues,
                   agency communications, program organization, and personnel guidance. In
                   addition, the agency provided responsive comments to 12 OIG comments issued
                   earlier. Significant comments are summarized below:

                   Management Directives

                   Transparency and the release of documents under the Freedom of Information
                   Act have a renewed emphasis in the current environment. The revised draft of
                   MD 3.1, Freedom of Information Act, reflects recent policy changes and adds new
                   requirements. OIG comments requested clarification on the authority of the
                   agency to permit release of documents related to OIG’s mission. In addition,
                   OIG noted that the additional conditions for withholding of documents under
                   law enforcement exemption 7(F) did not appear to be included in either regula-
                   tory or Department of Justice guidance.



6   NRC OIG Semiannual Report to Congress
Revised MD 6.1, Resolution and Follow-up of Audit Recommendations, establishes
agency systems to ensure prompt and proper resolution and implementation of
audit recommendations made to the agency and provides guidance on addressing
audits by OIG and non-agency audit organizations. The review of this draft
directive afforded OIG the opportunity to revisit the structure of the audit reso-
lution process.

OIG comments sought to clarify the roles of the various audit organizations
assessing NRC programs and operations; better define the different types of
audits; clarify the audit followup requirements for the different types of audits;
define the impasse resolution process; and bring consistency between current
practices and the draft MD.

Draft MD 10.161, Civil Rights Program and Affirmative Employment and Diversity
Management Program, reflected a rebranding of the program formerly known
as the “NRC Equal Employment Opportunity Program” as well as additional
agency action items, including No Fear Act implementation. OIG provided
comments on minor issues in the draft, including the need to clarify certain
reporting requirements.

The draft revision of MD 11.6, Financial Assistance Programs, was well
constructed. OIG comments focused on wrongdoing reporting requirements
and suggested direction regarding timeframes for reporting.

OIG found revised MD 13.1, Property Management, to be generally comprehen-
sive; however, the matter of electronic devices (e.g., cell phones, BlackBerries)
requires more detail, clarity, and consistency with regard to responsibility for
oversight and accounting. In addition, the handling of reporting requirements
for contractor held property needs to be more fully addressed.



OTHER ACTIVITIES
Support of the Inspector General Community in Training
The OIG General Counsel, Maryann Lawrence Grodin, supported the IG
community in training and presentations. The Department of Justice Attorney
General guidelines for statutory law enforcement authority for OIG 1811
special agents include the requirement for periodic refresher training on speci-
fied legal issues. The Inspector General Criminal Investigator Academy was tasked
with formulating the syllabus for the training and identification of appropriate
teaching staff. The NRC OIG General Counsel was part of a group of attorneys
from several IG offices who constructed a model 3-hour course and participated
in training a cadre of attorney-trainers. Additionally, Ms Grodin presented the
Civil and Administrative Remedies class as part of the Inspector General Periodic



                                                                    April 1, 2010 - September 30, 2010   7
                    Refresher Training Program in Denver, Colorado, and Chicago,
                    Illinois, to more than 50 agents from more than a dozen Federal agencies.

                    The Council of Counsels to Inspectors General, a group of attorneys who serve as
                    legal advisors in the Federal IG community, sponsors a training program for
                    law students working as summer interns in IG offices in the Washington, D.C.,
                    area. As part of the introductory session for this year’s program, the NRC
                    OIG General Counsel provided a presentation on the History and Concept of the
                    Inspector General in the Federal Government. In addition to the chronological
                    history, she related the political and philosophical context of IG authority
                    and functions, adding factual illustrations and anecdotes from practice in the
                    community.

                    Ms. Grodin was also invited to serve as a guest speaker for the annual Space
                    and Warfare Command Inspector General Conference. During that conference,
                    she provided a presentation to more than 35 IG investigators,
                    auditors, and attorneys from a variety of field offices and with varying
                    experience levels. Her presentation covered procurement issues related to
                    fraud in service contracting, focusing on the pitfalls in improper personal services
                    contracts and performance of inherently governmental functions. During the
                    presentation, she related both the statutory and regulatory authority and
                    standards applicable to each of the topics, and illustrated each discussion area
                    with examples from practice and evolving case law.



                                                 NRC OIG Receives Best-In-Class Award
                                                 On May 26, 2010, the Association of Government
                                                 Accountants presented the NRC OIG with the
                                                 Certificate of Excellence in Accountability Reporting
                                                 Best-In-Class Award, “In recognition for Providing
                                                 the Best Inspector General’s Summary of Manage-
                                                 ment and Performance Challenges in your FY 09
                                                 Performance and Accountability Report.” Steven E.
                                                 Zane, Deputy Assistant Inspector General for Audits,
                                                 and Kathleen Stetson, Team Leader, received the
                                                 award on behalf of the
OIG receives Best-In-Class Award. Pictured       many OIG employees
left to right are Robert K. Wild, Team Leader;   who authored the various
Sherri Miotla, Team Leader; Hubert T. Bell,      sections of the report.
Inspector General; Beth H. Serepca, Team         The OIG recognizes with
Leader; Steven E. Zane, Deputy Assistant         appreciation the valuable
Inspector General for Audits; Judy G. Gordon,    input provided by agency
Quality Assurance Manager, David C. Lee,         officials in connection
Deputy Inspector General; Kathleen M. Stetson,   with the Management and
Team Leader; and Stephen D. Dingbaum,            Performance Challenges
Assistant Inspector General for Audits.          report.



8   NRC OIG Semiannual Report to Congress
Management and Performance
Challenges

          Most Serious Management and Performance Challenges
               Facing the Nuclear Regulatory Commission *
                        as of September 30, 2009
                      (as identified by the Inspector General)

  Challenge 1	 Protection of nuclear material used for civilian purposes.

  Challenge 2	Managing information to balance security with openness and
               accountability.

  Challenge 3	Ability to modify regulatory processes to meet a changing
               environment, to include the licensing of new nuclear facilities.

  Challenge 4	 Oversight of radiological waste.

  Challenge 5	Implementation of information technology and information
               security measures.

  Challenge 6	 Administration of all aspects of financial management.

  Challenge 7	 Managing human capital.


  *The most serious management and performance challenges are not ranked in any
   order of importance.


The seven challenges contained in this report are distinct, yet interdependent
relative to the accomplishment of NRC’s mission. For example, the challenge
of managing human capital affects all other management and performance
challenges.




                                                                    April 1, 2010 - September 30, 2010   9
Audits
                   To help the agency improve its effectiveness and efficiency during this period, OIG
                   completed ten financial and performance audits or evaluations, eight of which are
                   summarized here that resulted in numerous recommendations to NRC management.
                   OIG also analyzed one contract audit report.

                   AUDIT SUMMARIES
                   Audit of NRC’s Management of Agreements with Department of
                   Energy Laboratories
                   OIG Strategic Goal: Corporate Management

                   The Energy Reorganization Act of 1974 authorized the NRC to use DOE
                   research facilities and services to assist NRC in conducting its mission. In 1978,
                   NRC and DOE executed a Memorandum of Understanding (MOU) that estab-
                   lished the policy governing the relationship between NRC and DOE for NRC-
                   funded research at DOE laboratories. The MOU, last updated in 1998, states
                   that NRC may order and pay for services from DOE laboratories and includes an
                   amended organizational conflict of interest (OCOI) provision.

                   There are currently 17 DOE laboratories nationwide and all are managed and
                   operated by non-Government entities under contract with DOE. As of July 13,
                   2009, NRC had 186 active agreements with DOE laboratories totaling approxi-
                   mately $365 million.

                   NRC MD 11.7, NRC Procedures for Placement and Monitoring of Work with the U.S.
                   Department of Energy, specifies the interagency responsibilities, authorities, and
                   procedures for placing and monitoring work at DOE laboratories.

                   NRC’s Division of Contracts is responsible for oversight of NRC work placed with
                   DOE labs, though responsibility for awarding, administering, and managing DOE
                   lab agreements is decentralized at NRC. The various program offices handle and
                   track their own lab agreements with little involvement by other NRC offices.

                     Project managers manage the DOE lab agreements for their respective offices;
                                                      this includes preparing the office’s justifica-
      Criteria for Placement of Work with DOE         tion for placing work with DOE laborato-
                                                      ries. The Office of the General Counsel
                                                      reviews, provides advice and counsel, and
                                                      makes recommendations regarding OCOI
                                                      concerns.

                                                           The audit objective was to determine
                                                           whether NRC has established and imple-
                                                           mented an effective system of internal
                                                           control over the placement and monitoring
                                                           of work with DOE laboratories.



10   NRC OIG Semiannual Report to Congress
Audit Results:

NRC complies with its OCOI requirements prescribed by Section 170A of
the Atomic Energy Act of 1954, as amended, and is consistent in assessing and
resolving potential OCOI issues prior to and after awarding work to a DOE lab.

However, OIG identified opportunities for program improvements in the
following areas:

•	 Source selection justifications.

•	 Audit coverage.

•	 Delegation of authority.

Source Selection Justification

MD 11.7 requires that project managers develop convincing justifications for
using a DOE lab rather than a commercial source. However, 20 of 38 lab agree-
ment justifications reviewed by auditors did not effectively demonstrate why a
DOE lab was more qualified to perform the work than a commercial firm. Some
justifications stated that DOE labs had unique capabilities when it appeared that
there was a strong likelihood that organizations other than DOE labs also had
the capabilities to perform the work. Furthermore, 32 of the justifications lacked
indication that commercial firm capabilities were assessed or considered as part
of the decisionmaking process.

Justifications were inadequate because (1) MD 11.7 guidance is unclear with
regard to consideration of commercial sources, (2) offices typically do not include
supporting background information and rationale in their DOE lab agreement
files, and (3) NRC does not require independent review of all justifications by
someone outside the originating office. Without adequately considering whether
commercial firms can perform the work awarded to DOE labs, the agency cannot
be certain that it is obtaining best value on these acquisitions.

Audit Coverage

To ensure the propriety of payments to DOE laboratories, NRC should receive
the results of audits performed on the laboratories. To date, NRC has not
received results of audits of DOE labs because the 1998 MOU between DOE
and NRC does not provide for this to occur. Consequently, NRC lacks assurance
regarding the propriety of amounts paid for work performed by DOE labs.

Delegation of Authority

NRC is authorized to use DOE research facilities and services to assist NRC in
conducting its mission. The Office of International Programs (OIP) is one of the
NRC offices that avails itself of this overall authority. Office of Management and
Budget Circular A-123 states that management must clearly define and appropriately


                                                                 April 1, 2010 - September 30, 2010   11
                   delegate areas of authority and responsibility. Currently, OIP is operating without a
                   signed delegation of authority to award and administer DOE lab agreements because
                   MD 11.7 does not include OIP as having the authority. Consequently, the agency
                   is not fully adhering to the delegation of authority requirements contained in MD
                   11.7, which creates the potential for ineffective management of certain agreements.
                   (Addresses Management and Performance Challenge #6)



                   Audit of NRC’s Telework Program
                   OIG Strategic Goal: Corporate Management

                   In recent years, the Federal Government has taken steps to increase opportuni-
                   ties for employees to telework. Telework is defined as work arrangements in
                   which an employee regularly performs officially assigned duties at home or other
                   worksites geographically convenient to the employee’s residence. Telework is
                   also a tool that can be used to ensure continuity of essential Government
                   functions in the event of national or local emergencies.

                   NRC’s Office of Human Resources (HR) Employee/Labor Relations and Work
                   Life Branch, has responsibility for implementing the NRC’s telework program
                   in accordance with telework guidelines stated in the Collective Bargaining
                   Agreement (CBA) between NRC and the National Treasury Employees Union
                   (NTEU), which covers approximately 68 percent of NRC permanent employees.

                   This audit addressed three categories of telework arrangements that are
                   practiced at NRC: project-based, fixed-schedule, and full-time. Project-based
                   telework is used to complete portable short-term tasks such as writing
                   performance appraisals. The time spent is normally measured in terms of
                   days or hours. Fixed-schedule telework is a regular arrangement to perform
                   portable duties for a specified period of time. For the period 2006-2009, the
                   number of NRC’s fixed-schedule teleworkers increased from approximately 200
                   to 700. Full-time telework is a type of fixed-schedule telework that occurs when
                   an employee primarily works at an alternate workplace. As of January 2010, 27
                   employees had either obtained or requested full-time telework.

                 The audit objectives were to determine NRC’s readiness to have staff tele-
                                             work under emergency situations, the adequacy
NRC Fixed-Schedule Teleworkers, 2006-2009
                                             of internal controls associated with the telework
                                             program, and NRC’s compliance with relevant law
                                             and Office of Personnel Management guidance.

                                                 Audit Results:

                                                 NRC has established a telework program that
                                                 supports the agency’s mission and work/life
                                                 programs. However, OIG identified opportunities
                                                 for program improvements in the following areas:



12   NRC OIG Semiannual Report to Congress
•	 Readiness to telework during emergency situations.

•	 Telework program internal controls.

•	 Compliance with law.

Readiness To Telework During Emergency Situations

NRC emergency plans require that employees potentially needed to telework
during pandemic emergencies be identified and have the equipment needed to
telework. However, NRC has not identified all of the individuals needed for
teleworking during pandemic emergencies or the methods for accessing informa-
tion technology systems that are not remotely accessible via Citrix or in the event
of a power failure, but are potentially needed for telework to occur. At the time
of the audit, 21 of 26 offices had not identified personnel who are required to
perform essential functions and high priority tasks during a pandemic. Further-
more, while NRC identified 35 applications/systems used to carry out NRC’s
essential functions, 28 of that total were not available to personnel who telework
and compensating manual or other systems were not in place.

NRC has not identified all individuals and systems infrastructure potentially
needed for telework during pandemic emergencies because it has not made
completing the telework aspects of pandemic planning a priority. Without iden-
tifying the individuals needed to telework during emergencies and how systems
would be accessed for telework during emergencies, the agency’s ability to
perform mission-related functions in a pandemic emergency is diminished.

Telework Program Internal Controls

Management has the fundamental responsibility to develop and maintain effec-
tive internal control over the telework program, such as ensuring that required
telework documentation is properly approved, maintained, and readily avail-
able for examination. In addition, management is responsible for developing
and implementing detailed telework policies and procedures that should appear
in a Management Directive or operating manual. However, NRC is not main-
taining complete telework documentation and has not developed or implemented
a telework program policy that applies to all agency employees. The agency’s
policy, which is found in the CBA between NRC and the NTEU, does not cover
approximately 32 percent (1,255) of NRC’s permanent employees who are not
part of the bargaining unit. Although in practice, NRC follows the CBA for full-
time non-bargaining unit employees, the agency’s telework policy should clearly
apply to both bargaining unit and non-bargaining unit personnel.

These internal control weaknesses exist because agency policy and procedures
regarding telework are not consolidated into a Management Directive and hand-
book. By strengthening internal controls, NRC staff can improve the telework
program so that employees will have a common understanding of the program
and an increased awareness of opportunities to telework.




                                                                 April 1, 2010 - September 30, 2010   13
                   Compliance with Law

                   NRC is required to establish telework policies that provide eligible employees
                   the ability to telework to the maximum extent possible without diminished
                   employee performance. CBA telework eligibility guidance requires that manage-
                   ment consider covered employee performance for initial and continued participa-
                   tion. Despite these requirements, managers inconsistently assessed and reported
                   the results of employee arrangements to HR and in some cases did not report
                   the information. Performance was inconsistently assessed and reported because
                   NRC has not established procedures to accomplish a consistent approach. As
                   a result, the agency has no assurance that all employees who telework full-time
                   from alternate worksites are maintaining their expected performance levels.
                   (Addresses Management and Performance Challenge #7)



                   Audit of NRC’s Process for Closed Meetings
                   OIG Strategic Goal: Security

                   In 1977, Congress enacted the Government in the Sunshine Act (the Sunshine Act) with
                   the goal of enhancing openness in the decisionmaking process of Federal Govern-
                   ment agencies. The Sunshine Act states that when Federal agency heads deliberate
                   on behalf of their respective organizations, these meetings must be open to the
                   public. However, the Sunshine Act provides exemptions allowing for certain meet-
                   ings to be closed to the public. Each Federal agency is required to document the
                   reasons why a meeting was closed; give notice of the closed meeting; keep transcripts,
                   electronic recordings, or minutes of the closed meeting; and report to Congress
                   annually on compliance with these requirements. The Sunshine Act provisions apply
                   to meetings in which NRC Commission members participate; currently, the agency
                   is meeting the reporting requirements of the act.

                   In addition to meetings between Commission members and stakeholders, NRC
                   staff meet regularly with various external stakeholders (e.g., NRC licensees,
                   license applicants) to discuss agency regulatory activities. These exchanges
                   take place in various forums, including in-person, teleconference, videoconfer-
                   ence, phone conversations, and Web-based meetings. These meetings are not
                   governed by the Sunshine Act.

                   NRC strives to be open and transparent in the transaction of nuclear regulation,
                   and NRC’s Commission members promote this goal. In a recent speech, the
                   current NRC Chairman stated that NRC must conduct itself openly and trans-
                   parently in fulfilling the agency’s core mission and preparing for new issues and
                   challenges. A former NRC Chairman also affirmed that transparency and public
                   involvement must be key elements of NRC’s licensing and oversight, and a prior
                   NRC Commissioner stated that for NRC to fulfill its mission, it must do so in an
                   open and transparent regulatory environment.

                   The audit objective was to determine if NRC’s process for conducting meetings that
                   are closed to the public hinders the transparent transaction of nuclear regulation.


14   NRC OIG Semiannual Report to Congress
Audit Results:

Although NRC strives for a transparent closed meeting process, the public avail-
ability of closed staff meeting notices and summaries is inconsistent. Specifically:

•	 There is uncertainty as to what constitutes a “meeting.”

•	 Closed staff meeting information is not always accessible by the public.

•	 The timeframe in which closed staff meeting notices and summaries are issued varies.

According to Federal guidance, the agency’s regulatory process should be open and
transparent. However, ambiguity in NRC’s guidance for closed staff meetings may
impede agency staff from effectively and consistently complying with the agency’s
openness goal. Moreover, NRC risks the public perception of not regulating in an
open and transparent manner.

Uncertainty About What Constitutes a “Meeting”

There is uncertainty as to what constitutes a “meeting,” leading to inconsistencies in
the recording of closed staff meeting information. For example, stakeholders expressed
concerns about certain phone conversations between NRC and licensees/applicants
that could have been construed as closed staff meetings and, therefore, should have been
announced and summarized. One agency official questioned whether visits from NRC
employees to licensee/applicant sites can be interpreted as “meetings,” and added that
NRC needs better guidance in this area. Without a clear definition of what constitutes a
“meeting,” it is hard for agency staff and external stakeholders to know how many closed
staff meetings actually occur.

Closed Staff Meeting Information Is Not Always Accessible By the Public

Agency guidance states that staff are encouraged to post closed staff meeting information
in the Agencywide Documents Access and Management System (ADAMS);2 thus, this
information is not always accessible by the public because staff can profile the document as
public or non-public. Although the public cannot attend closed staff meetings, notices of
when the meetings take place can be made available to the public. While sensitive issues
are discussed in closed staff meetings and the details are not appropriate to be made public,
NRC can issue generic summaries that can be made public.

Timeframe in Which Notices and Summaries Are Issued Varies

The timeframe in which closed staff meeting notices and summaries are issued to
the public varies. Based on the 375 closed staff meeting notices available in ADAMS,
about 40 percent of the meeting notices publicly available in ADAMS were issued less
than 10 days prior to the date of the meeting.3 Summaries of closed staff meetings,
when prepared, were publicly available in ADAMS between 1 and 60 days after the
meeting took place.
2
    ADAMS is a document management system used by NRC to organize, process, manage, search,
    and retrieve agency records.
3
    An NRC official noted that some closed staff meetings are scheduled on a very short notice and,
    therefore, the agency is unable to provide advance notification of these meetings.


                                                                                April 1, 2010 - September 30, 2010   15
                   Ambiguous Guidance Leads to Risk of Not Operating Openly and
                   Transparently

                   NRC guidance for documenting closed staff meetings is ambiguous, leading
                   to inconsistencies in the reporting and public availability of closed staff
                   meeting information. Moreover, the agency risks the public perception that
                   NRC does not regulate in an open and transparent manner, and that the
                   agency gives preferential treatment to certain external stakeholders. Recent
                   Federal Government initiatives require agencies to improve the openness
                   and transparency of their activities with the public. Therefore, it is especially
                   important for NRC to clarify its guidance to improve its communication
                   regarding closed staff meeting information and thereby better meet its goal
                   for an open and transparent nuclear regulatory process. (Addresses Management
                   and Performance Challenge #2)



                   Audit of NRC’s Deployment of the National Source Tracking System
                   OIG Strategic Goal: Corporate Management

                   NSTS is a centralized database developed and managed by NRC to help NRC
                   and Agreement State regulatory agencies4 account for select categories of high-risk
                   radiological sources held by approximately 1,300 licensees.5 Specifically, NSTS is
                   used to monitor transactions and inventories of nationally tracked sources as defined
                   in Title 10 of the Code of Federal Regulations, Part 20, Section 1003 (10 CFR
                   20.1003).6 These nationally tracked sources include Category 1 and 2 radiological
                   sealed sources that have industrial, medical, and research uses.7 IAEA characterizes
                   Category 1 and 2 sources as radiological materials that pose the greatest health risks
                   if not safely managed or securely protected.8

                   4
                        he Atomic Energy Act of 1954 allows NRC to delegate to State governments some authority to
                       T
                       license and regulate radiological materials. States that have signed formal regulatory agreements
                       with NRC are known as “Agreement States.”
                   5
                       Licensees are businesses and other organizations licensed by NRC and Agreement States to
                       possess radiological sources.
                   6
                       10 CFR 20.1003 defines a nationally tracked source as, “a sealed source containing a quantity
                       equal to or greater than Category 1 or Category 2 levels of any radioactive material listed in
                       Appendix E of this part. In this context a sealed source is defined as radioactive material that is
                       sealed in a capsule or closely bonded, in a solid form and which is not exempt from regulatory
                       control. It does not mean material encapsulated solely for disposal, or nuclear material contained
                       in any fuel assembly, subassembly, fuel rod, or fuel pellet. Category 1 nationally tracked sources
                       are those containing radioactive material at a quantity equal to or greater than the Category
                       1 threshold. Category 2 nationally tracked sources are those containing radioactive material
                       at a quantity equal to or greater than the Category 2 threshold but less than the Category 1
                       threshold.”
                   7
                        hese sources do not include materials encapsulated solely for disposal, or nuclear materials
                       T
                       contained in fuel assemblies, subassemblies, fuel rods, or fuel pellets.
                   8
                        he IAEA’s five-category scale provides a relative ranking of radiological sources in terms of each
                       T
                       source’s potential to cause immediate harmful health effects if not safely managed or securely
                       protected. Category 1 sources are the most hazardous, and can cause permanent injury or death if
                       mishandled; Category 5 sources are the least hazardous, and could not cause permanent injury.


16   NRC OIG Semiannual Report to Congress
NRC developed NSTS in response to the U.S.                NSTS Contract Obligations for Operational
Government’s endorsement of the IAEA Code                  Support, Maintenance, and User Support
of Conduct on the Safety and Security of Radioac-                         (in $Millions)
tive Sources, which is the current standard used by
the international community to govern safety and
security of radioactive material based on the IAEA
categorization system.9 In addition, the Energy
Policy Act of 2005 required NRC to issue regula-
tions establishing a mandatory tracking system
for radiation sources in the United States. NRC
deployed NSTS in December 2008, thereby
enabling licensees to begin reporting radiological
source inventories and transactions by January 31, 2009, as required by 10 CFR
20. 2207.

NSTS enables licensees to report via the Internet transactions of nationally
tracked sources, including the manufacture, import, export, transfer, and receipt
of these sources.10 Licensees can also report transaction data by other means
such as facsimile, e-mail, or standard mail. Approximately 200 source transac-
tions are processed daily in NSTS.

The Office of Federal and State Materials and Environmental Management
Programs (FSME) is responsible for NSTS operations. A contractor operates
and maintains NSTS for FSME, and also processes data submitted by licensees
for entry into NSTS. The FSME contractor also runs the NSTS Help Desk,
whose personnel provide technical assistance to NSTS users. As of March 2010,
total obligated funding for the NSTS contract was approximately $20 million,
which included approximately $10.8 million for operations, maintenance, and
user support.11

The audit’s objective was to determine if NSTS meets its required operational
capabilities.

Audit Results:

NSTS satisfies basic operational requirements, including functional capabilities
for capturing data and security features for protecting data. However, OIG
auditors developed findings regarding NSTS smart card utilization, data quality,
and access controls.


9
     joint DOE/NRC Interagency Working Group on Radiological Dispersal Devices also
    A
    recommended a national source tracking system following its work during 2002-2003.
10
      he Energy Policy Act of 2005 established requirements for identifying individual radiological
     T
     sources (e.g., by serial number), and for reporting any change of possession or loss of control of
     these materials. In addition, this legislation required a capability for reporting through a secure
     Internet connection.
11
     The remaining $9.2 million in contract obligations reflect NSTS development tasks.




                                                                                    April 1, 2010 - September 30, 2010   17
                   Licensees Have Not Fully Adopted NSTS Technology

                   NSTS was designed primarily to be an Internet-based system enabling direct
                   data entry by licensees. However, a majority of the licensee user population has
                   not fully adopted technology required for direct access to NSTS. This trend is
                   caused by challenges inherent in the NSTS credentialing process, as well as tech-
                   nical problems encountered by licensees in using the smart card devices. Further,
                   Help Desk contractor personnel are not always capable of resolving application
                   and set-up problems encountered by NSTS users. As a result, NRC has incurred
                   administrative costs from updating NSTS on behalf of licensees who opt not to
                   enter their source transaction and inventory data into NSTS.

                   NSTS Has Data Quality Problems with Timeliness and Accuracy

                   Internal control standards for Federal Government agencies recommend that
                   data be processed in a timely manner to maintain its relevance and operational
                   value to management. NSTS is designed with automated security controls to
                   ensure the integrity of data entered into the system; however, OIG auditors
                   found problems with the timeliness and accuracy of NSTS data regarding source
                   transfers. These problems result primarily from the process by which data is
                   reported and manually uploaded into NSTS. Although NSTS is designed to
                   enable direct data entry by credentialed licensee personnel, most transactions are
                   processed by NRC’s contractor on behalf of licensees. For example, a December
                   2009 report showed that the FSME contractor processed approximately 70
                   percent of transactions that month.

                   Although NSTS cannot provide “real time” tracking of licensees’ source transac-
                   tions and inventories, NRC and Agreement State personnel must have reliable
                   information to perform their oversight duties.

                   Least Privilege Principle Not Consistently Applied to NSTS Access
                   Controls

                   Federal Government internal controls standards for information systems recom-
                   mend security controls to protect systems and networks from inappropriate access
                   and unauthorized use. Although NSTS access rights for licensee personnel are
                   scaled to individual users’ job needs, some NRC staff have broader access rights
                   that do not reflect individuals’ job needs or organizational roles. This occurs
                   because NRC lacks a procedure for scaling staff access rights to their respective
                   job needs. Although OIG auditors did not find evidence of internal NSTS data
                   breaches, the lack of a procedure to ensure consistent application of the least privi-
                   lege principle increases the risk that NSTS data could be intentionally or acciden-
                   tally compromised. (Addresses Management and Performance Challenge #5)




18   NRC OIG Semiannual Report to Congress
Audit of NRC’s Oversight of Irradiator Security
OIG Strategic Goal: Security

Irradiators are devices that expose products, such as food and
medical supplies, to radiation for sterilization and other purposes.
Radiation is achieved by the exposure to high-risk radioactive
materials, such as Cobalt-60 and Cesium-137. Commercial firms,
as well as State-run organizations such as hospitals and universi-
ties, operate irradiators and are licensed to possess the radioactive
materials used in these devices.

NRC and NRC Agreement States12 regulate the safe and secure            Blood Irradiator.
use of these irradiators and other radioactive materials. NRC’s        Photo courtesy IAEA
Office of Federal and State Materials and Environmental Manage-
ment Programs (FSME) develops and implements rules and guidance for the safe
and secure use of source, byproduct, and special nuclear material in industrial,
medical, academic, and commercial activities, including irradiators. Inspections
to ensure compliance with these regulations are conducted by approximately 46
NRC materials inspectors and numerous inspectors within the 37 Agreement
States. Nationwide, there are approximately 50 licensees that operate about 50
large irradiators that contain more than 10,000 curies of Cobalt-60. Additionally,
there are approximately 590 licensees that operate about 1,100 smaller type irra-
diators that use lesser quantities of radioactive materials.

NRC materials inspectors based in NRC’s regional offices13 are responsible for
ensuring licensee compliance with regulatory safety and security requirements.
NRC Inspection Manual Chapter 2800, “Materials Inspection Program,” outlines
NRC’s materials inspection program policy. This manual chapter establishes
frequencies for routine inspections of all licensees, details when poor perfor-
mance requires increased inspection oversight, and addresses other areas of mate-
rials oversight. NRC Inspection Manual Chapter 1246, “Formal Qualification
Programs in the Nuclear Material Safety and Safeguards Program Area,” defines
training and qualification requirements for personnel working within the nuclear
materials inspection program.

In the changed threat environment since the terrorist attacks of September 11, 2001,
NRC determined that certain licensed material should be subject to enhanced
security requirements and issued several orders to address the security of
radioactive materials.

The purpose of this audit was to determine the adequacy of NRC’s oversight of
industrial irradiator security. Due to the scope of the security orders and NRC’s
12
      n Agreement State is a State that has assumed regulatory responsibility over certain byproduct,
     A
     source, and small quantities of special nuclear material through an agreement with NRC. As of
     June 2010, 37 States had signed formal agreements with NRC
13
      hese NRC inspectors are located at NRC Regions I, III, and IV. Region II facilities are
     T
     inspected by Region I personnel.



                                                                                  April 1, 2010 - September 30, 2010   19
                   efforts to combine these security orders into one section of the CFR, the
                   audit findings and recommendations expand beyond irradiators to address the
                   radioactive materials security program as a whole.

                   Audit Results:

                   While NRC has worked to increase security of irradiators and other radiological
                   materials of concern, enhancements in the materials security program are needed
                   to better ensure the security of these materials.

                   Specifically, NRC needs to (1) establish security inspection frequencies based
                   on a risk-informed approach, (2) enhance access authorization controls of
                   individuals with unescorted access to materials of concern, and (3) fully
                   develop the security training program for materials inspectors.

                   Security Inspection Frequency

                   The frequency of materials security inspections should be based on a risk-
                   informed process that takes into account the security risk associated with the
                   material. Currently, security inspections are based on a licensee’s safety inspec-
                   tion schedule rather than the risk that the material will be stolen or exploited
                   for malevolent purposes. The frequency of the security inspections is not risk-
                   informed because the frequencies established in Inspection Manual Chapter
                   2800 do not consider current security risks. Without a risk-informed approach
                   to the security inspection program, radioactive materials could be at an increased
                   vulnerability to theft or sabotage.

                   Access Authorization Controls

                   All details associated with the audit report finding “Process To Regularly Check
                   Individuals With Unescorted Access to Materials of Concern Is Needed,” have
                   been redacted from the public version of the report and the Semiannual Report
                   due to the sensitive, security-related nature of the information.

                   Security Training Program

                   NRC materials inspectors should be provided the tools and training necessary
                   to make risk-informed decisions to address security, health and safety, and
                   environmental aspects of licensee compliance. While these inspectors receive
                   initial training on the security requirements for material licensees, they do
                   not receive any refresher training to address the security aspects of their jobs.
                   Although NRC has acknowledged the need to incorporate security training into
                   the inspector qualification program, the development of a security refresher
                   course has not been a priority. Without formalized refresher training, NRC
                   might not be able to ensure licensees are adequately protecting materials of
                   concern. (Addresses Management and Performance Challenge #1)




20   NRC OIG Semiannual Report to Congress
Assessment of NRC’s Wireless Devices
OIG Strategic Goal: Security

Wireless devices, services, and technologies are commonplace in all aspects of
our lives and offer potential cost-savings and convenience over wired solutions.
Wireless devices include any electronic device that can communicate with other
devices without being physically attached to those devices. Most wireless devices
communicate through radio frequencies. A wireless service provides access to
services such as telephone, e-mail, calendaring, and messaging using wireless
devices. Wireless technologies include mobile equipment, such as cellular
telephones, BlackBerries, and wireless networking.

The objective of this assessment conducted by Southwest Research Institute
(SWRI) on behalf of OIG was to determine if NRC’s wireless devices met
required operational capabilities and security requirements. SWRI’s assessment
focused on two wireless systems. In addition, a top-level overview of Bluetooth
communication was conducted.

Assessment Results:

The assessment found that the overall policy framework that supports both
wireless devices should be reviewed and revised. The existing policy framework
is complex and confusing, and both gaps and overlaps exist. The use of wireless
devices at NRC is a recent occurrence, but the Management Directives and other
policies and procedures need to be updated to reflect the current use of wireless
devices.

In addition, the assessment identified other technical and procedural changes
needed for both wireless systems. Because these changes could provide adver-
saries with an attack plan, specifics were not presented in the public version of
the report and are not provided in this Semiannual Report, which is also a public
document. (Addresses Management and Performance Challenge #5)



Audit of NRC’s Vendor Inspection Program
OIG Strategic Goal: Safety

NRC endeavors to protect the public health and safety and the environment by
overseeing vendor compliance with NRC’s regulations for assuring the integrity
of domestic and global parts and services supplied to nuclear power reactors.
NRC directly oversees compliance by conducting reactive and routine inspections
of vendors, and indirectly through licensee audits of vendors and through ASME
standards. Vendors manufacture a range of components such as fasteners, pumps,
valves, and reactor vessels, as well as provide design, engineering, and construction
services. While most vendors do not hold NRC licenses, they are nonetheless
bound through contracts with licensees, applicants, or other vendors to comply



                                                                   April 1, 2010 - September 30, 2010   21
           The Nuclear Procurement Process                with NRC’s quality assurance regulations
                                                          contained in Appendix B to Title 10, CFR
                                                          Part 50 (Appendix B). Vendors are also
                                                          required to comply with 10 CFR Part 21
                                                          (Part 21).

                                                          Appendix B requires that a quality assur-
                                                          ance program be applied to all activities
                                                          affecting structures, systems, and compo-
                                                          nents of reactors that prevent or mitigate
                                                          the consequences of postulated accidents
                                                          that could cause undue risk to the health
                                                          and safety of the public. Vendors have a
                                                          unique relationship with NRC through
                                                          licensees given that, while the regula-
                                                          tion requires licensees to establish and
                                                          implement an Appendix B quality assur-
                                                          ance program, it does not specifically
                   require this of vendors. Vendors are nonetheless required to comply because this
                   requirement is passed down from licensees to vendors through contracts.

                   Part 21 establishes (1) procedures for reporting defects in safety-related compo-
                   nents, and (2) a process for providing reasonable assurance that commercial
                   off-the-shelf parts used in nuclear power plant safety-related applications will
                   perform their intended safety function. Vendors are required to notify NRC of a
                   defect in a basic component— also referred to as a “safety-related” component.

                   Vendors and their customers often acquire parts from commercial suppliers
                   that do not produce parts specifically designed or manufactured for a nuclear
                   safety-related application. These parts are called commercial-grade items. If
                   a customer decides to purchase commercial-grade items, Part 21 requires the
                   customer receiving the items to use a commercial-grade dedication process to
                   provide reasonable assurance that these items destined for use in nuclear power
                   plants will perform their intended safety function.

                   NRC conducts reactive and routine inspections of vendors’ implementation
                   of Appendix B and Part 21 requirements. Typically, reactive inspections are
                   performed by NRC’s Office of Nuclear Reactor Regulation (NRR), and routine
                   inspections are performed by NRC’s Office of New Reactors (NRO). During the
                   period January 2009 through March 2010, NRR performed five of these reactive
                   inspections, which resulted in findings that the vendor was not in compliance
                   with one or more aspects of Part 21 or Appendix B. During the period January
                   2009 through March 2010, NRO performed 16 of these routine inspections,
                   which resulted in findings that the vendor was not in compliance with one or
                   more aspects of Part 21 or Appendix B.

                   Vendors providing safety-related parts and services for the nuclear industry
                   have become increasingly global over the last few decades. For example, NRC


22   NRC OIG Semiannual Report to Congress
regulations require parts of the reactor coolant pressure boundary14 to be
manufactured according to the ASME Boiler and Pressure Vessel Code. The
code requires those vendors manufacturing reactor coolant pressure boundary
parts to have an ASME nuclear, or “N-type,” certificate. According to OIG
analysis of industry documents, the number of U.S. vendors maintaining an
ASME N-type certificate decreased to roughly 125 in 2009 from about 500 in
1980. The number of international ASME N-type certificates has fluctuated
between about 80 and 100 certificates. As of 2009, there were about 100
international firms with ASME N-type certificates.

The audit objective was to assess NRC’s regulatory approach for ensuring the
integrity of domestic and foreign safety-related parts and services supplied to
current or prospective nuclear power reactors.

Audit Results:

Beginning in 2007, the agency proactively enhanced its overall approach to
vendor inspections and increased vendor outreach efforts. After the creation
of NRO, two new branches were established to perform additional vendor
inspections, including routine inspections. OIG has identified five areas that
need management attention while NRO continues its ongoing vendor inspection
activities.

Enhanced Planning Would Improve Vendor Identification and Selection

NRO’s planning process for identifying and selecting vendors for routine inspec-
tions, and its strategy for guiding the process, is largely an informal one. Simply
identifying the number of vendors is challenging, and NRO does not know
how many vendors there are or how to identify changes in the vendor universe.
Furthermore, NRO’s planning for selecting vendors for inspection is based on
an approach that relies primarily on professional judgment. Moreover, NRO’s
overall strategic approach to vendor identification and selection planning is
informal as indicated by NRO staff, who have varying views of the purposes of
the Vendor Inspection Program and routine vendor inspections.

Opportunity To More Effectively Communicate Requirements

NRC relies on nuclear vendors’ understanding and implementation of its regula-
tions to assure that safety-related components will perform adequately in service,
and that defects are reported. In order for vendors supplying nuclear compo-
nents and services to be knowledgeable of their obligations under the regulations,
NRC must effectively communicate the regulations. NRC has undertaken a
number of efforts to communicate regulations to vendors, but some vendors are
not aware of all obligations or NRC expectations which might result in vendors
not reporting defects or otherwise fully assuring that safety-related components
will perform adequately in service.

14
      he reactor coolant pressure boundary is a primary barrier that protects the public from exposure
     T
     to radiation.


                                                                                 April 1, 2010 - September 30, 2010   23
                   Commercial-Grade Dedication and Part 21 Regulations and Guidance
                   Could Be Clarified

                   Even when vendors are aware of the applicable NRC regulations and other
                   regulatory information, NRC could clarify its expectations and requirements for
                   Part 21 and for the process of obtaining parts from commercial suppliers known
                   as commercial-grade dedication. NRC presumes that adherence to its regula-
                   tory requirements on the part of licensees and vendors assures safety. However,
                   nuclear vendors are confused about how to adequately implement Part 21 and
                   commercial-grade dedication due to unclear, insufficient, or conflicting guidance.
                   This could lead to vendors (1) supplying parts and services to nuclear power
                   plants that do not meet NRC regulatory requirements or quality assurance
                   expectations, and (2) inadequately reporting defects.

                   Calibration Laboratory Approval Guidance Could Be Clarified

                   NRC’s guidance for approving accredited commercial-grade calibration laborato-
                   ries—which calibrate measuring and test equipment used by vendors to evaluate
                   the properties of materials and parts—could be clarified. In response to a request
                   from one of its licensees, NRC allowed a process permitting the licensee to
                   approve calibration laboratories based on the reviews performed by accrediting
                   bodies in lieu of an Appendix B audit or a commercial-grade survey. However,
                   since NRC’s guidance documents describing this process are disparate, vendors
                   are confused about, and have difficulty implementing, the process. Consequently,
                   vendors’ approval of laboratories may not be in accordance with NRC’s expecta-
                   tions, vendors may find themselves unknowingly in violation of Appendix B or
                   NRC commercial-grade dedication requirements, and vendors could find they
                   have used out-of-calibration equipment during the manufacturing process.

                   NRC’s Approach to Counterfeit, Fraudulent, and Substandard Items
                   (CFSI) Could Be Strengthened

                   NRC could strengthen its current approach to CFSI. Both the Federal
                   Government and private sector have recognized the increasing prevalence of
                   CFSI in nuclear and other industries. However, NRC’s approach has been
                   primarily reactive because NRC lacks a formal strategy and plan to monitor
                   and evaluate potential CFSI, and consider program changes to address the
                   issue. Consequently, the lack of any formal strategy or framework could result
                   in reactor construction problems with major implications for public health and
                   safety. (Addresses Management and Performance Challenge #3)




24   NRC OIG Semiannual Report to Congress
Audit of NRC’s Oversight of the Access Authorization Program for
Nuclear Power Plants
OIG Strategic Goal: Security                                  Nuclear Power Plant Security Zones

NRC has promulgated regulations requiring
that its licensees implement an access authori-
zation program to provide high assurance that
individuals who are granted unescorted access to
nuclear power plants and those individuals who
maintain unescorted access to these sites are
trustworthy and reliable and do not constitute
an unreasonable risk to public health and safety,
including the potential to commit radiological
sabotage.

NRC inspects licensee access authorization            Source: Nuclear Energy Institute
programs to verify that licensees are imple-
menting programs in accordance with NRC regulations and the facilities’ security
plans. Regional security inspectors conduct these inspections on a triennial cycle.
Specifically, these inspectors look to provide assurance that a licensee’s access
authorization program and its implementation process and procedures ensure
individuals granted unescorted access are trustworthy and reliable.

Sharif Mobley was arrested and charged in Yemen as a suspected member of
al Qaeda in March 2010. Prior to his arrest, Mobley worked as a general laborer
at six nuclear power plants in the United States between 2002 and 2008. Mobley’s
arrest prompted congressional interest and in early 2010, following Mobley’s
arrest, Senator Charles Schumer and Congressman William Owens sent letters
to NRC’s Inspector General requesting a thorough and comprehensive review of
NRC’s process requirements for licensees granting unescorted access at nuclear
power plants.

In light of the Sharif Mobley incident, NRC is evaluating the access authorization
process and NSIR’s interface with the Federal Bureau of Investigations Terrorist
Screening Center. NRC has made some initial enhancements to certain aspects of
the access authorization program.

The purpose of this audit was to determine the effectiveness of NRC’s oversight of
nuclear power plant access authorization programs.

Audit Results:

Due to the sensitive security related nature of the audit, additional details
cannot be provided in this Semiannual Report, which is public. The following
information appeared in a redacted, publicly released version of the audit report.




                                                                   April 1, 2010 - September 30, 2010   25
                   This audit found that program performance could be enhanced by implementing
                   OIG recommendations regarding:

                   •	 Behavioral Observation Program training requirements.

                   •	 Personnel Acccess Data System database access.

                   •	 NRC’s procedures for screening individuals granted unescorted access.

                   (Addresses Management and Performance Challenge #2)



                   AUDITS IN PROGRESS
                   Audit of NRC’s FY 2010 Financial Statements
                   OIG Strategic Goal: Corporate Management

                   Under the Chief Financial Officers Act and the Government Management and
                   Reform Act, the OIG is required to audit the financial statements of the NRC. The
                   report on the audit of the agency’s financial statements is due on November 15,
                   2010. In addition, OIG will issue reports on:

                   •	 Special Purpose Financial Statements.

                   •	 Implementation of the Federal Managers’ Financial Integrity Act.

                   •	 Condensed Financial Statements.

                   The audit objectives are to:

                   •	 Express opinions on the agency’s financial statements and internal controls.

                   •	 Review compliance with applicable laws and regulations.

                   •	 Review the controls in the NRC’s computer systems that are significant to
                      the financial statements.

                   •	 Assess the agency’s compliance with Office of Management and Budget
                      Circular A-123, Revised, Management’s Responsibility for Internal Control.

                   (Addresses Management and Performance Challenge #6)




26   NRC OIG Semiannual Report to Congress
Audit of NRC’s Purchase Card Program
OIG Strategic Goal: Corporate Management

NRC employees use purchase cards for purchases of supplies and services that do
not exceed $3,000. During FY 2009, there were approximately 10,000 purchase
card transactions conducted by 124 NRC employees that totaled more than
$6,000,000.

NRC’s purchase card program guidance states the procedures that need to be
followed for the usage of purchase cards by NRC employees and the responsi-
bilities of the staff managing the program.

Recent audits conducted by other Federal agencies on their respective purchase
card programs have found significant internal control deficiencies that have led
to the improper usage of Government issued purchase cards.

The audit objective is to determine whether NRC has established and imple-
mented an effective system of internal control over the use of Federal purchase
cards. (Addresses Management and Performance Challenge #6)



Audit of NRC’s iLearn Learning Management System
OIG Strategic Goal: Corporate Management

iLearn is NRC’s learning management system that was developed to serve as the
central point for all training activities across the agency and to provide detailed
training information for all NRC employees. The system was developed by
a contractor under an interagency agreement with the Office of Personnel
Management. Its purpose is to provide access to online courses from courseware
libraries as well as custom courses developed by NRC, allow staff to register for
courses and submit training requests online, complete training evaluations, and
generate training reports.

Since its April 2008 deployment, the system has experienced problems. For
example, an attempt was made to move all agency online training from NRC’s
server onto iLearn. This would permit employees to launch all online training
from one application and have course completion information automatically
added to their learning history. However, many of the online training courses
are not working correctly due to technical problems that cause them to launch
incorrectly or not launch at all. Consequently, many of the online courses were
removed from iLearn and placed back on the NRC server.

The audit objective is to determine the effectiveness of the iLearn Learning
Management System to meet the agency’s current and future training needs.
(Addresses Management and Performance Challenge #7)




                                                                 April 1, 2010 - September 30, 2010   27
                   Audit of NRC’s Oversight of Defect Reporting for Installed
                   Equipment
                   OIG Strategic Goal: Safety

                   While conducting the Audit of the NRC’s Vendor Inspection Program during FY
                   2010, OIG auditors learned of instances of differing interpretations of defect
                   reporting requirements for defects found in basic components. Section 206 of
                   the Energy Reorganization Act of 1974, as amended, requires that NRC be noti-
                   fied of defects in basic components that could cause a substantial safety hazard.

                   Currently, however, event reporting guidance appears not to require licensees to
                   report some defects in installed equipment that could result in substantial safety
                   hazards. Specifically, regulatory guidance that is provided to licensees does not
                   require these licensees to report defects if an event was caused by the defect and
                   is evaluated against the reporting criteria in 10 CFR 50.72 or 50.73. Moreover,
                   licensees do not appear to be consistently reporting some defects that could
                   result in substantial safety hazards.

                   The audit objective is to determine if NRC’s implementation of Federal
                   regulations requiring reactor licensees to report defects contained in installed equip-
                   ment is meeting the intent of the Energy Reorganization Act of 1974, as amended,
                   Section 206, Noncompliance. (Addresses Management and Performance Challenge #3)



                   Audit of NRC’s Oversight of Master Materials Licensees
                   OIG Strategic Goal: Safety

                   The Office of Federal and State Materials and Environmental Management
                   Programs has, among other activities, the responsibility to provide program
                   oversight for the master materials license program. Master materials licenses are
                   issued by NRC to provide designated organizations with regulatory authority
                   for the receipt, possession, distribution, use, transportation, transfer, and disposal
                   of radioactive material. As of August 2010, there were three master materials
                   licensees: the Departments of Air Force, Navy, and Veterans Affairs (VA).

                   The public and Government officials have recently questioned the effectiveness
                   of NRC oversight in the aftermath of the reported misadministration of treat-
                   ments to 97 patients at a VA hospital in Pennsylvania. Congressional and public
                   interest remains high where nuclear materials are involved and there remains
                   public concern with respect to the use of radioactive material at other VA
                   hospitals and other organizations to which NRC has delegated master
                   materials licenses.

                   The audit objective is to determine the extent to which NRC is providing
                   effective oversight of master materials licensees. (Addresses Management and
                   Performance Challenge #1)



28   NRC OIG Semiannual Report to Congress
Audit of NRC’s Oversight of Independent Spent Fuel Storage
Installations Safety
OIG Strategic Goal: Safety

The need for alternative storage began to grow in the late 1970s/early 1980s as
spent fuel pools at many nuclear reactors began to fill up with stored fuel. NRC
authorizes licensees to store spent nuclear fuel at independent spent fuel storage
installations (ISFSIs), generally consisting of casks on a concrete pad located
onsite. A site-specific ISFSI is licensed for 20 years from the date of approval.
Thus, until a high-level waste repository is made available, spent nuclear fuel at
ISFSIs across the Nation will continue to accumulate.

The audit objective is to determine if NRC has the requisite processes in place
for reviewing and approving ISFSIs. (Addresses Management and Performance
Challenge #4)



Audit of NRC’s Oversight of Independent Spent Fuel Storage
Installations Security
OIG Strategic Goal: Security

An ISFSI is a storage facility for spent nuclear fuel. Under the Atomic Energy
Act of 1954, as amended, NRC has the responsibility to establish rules, regula-
tions, orders, and policies to assure that source material, byproduct material,
and special nuclear material are stored in a manner to adequately protect public
health and safety, the common defense and security, and the environment.

Following the terrorist events of September 11, 2001, NRC issued security orders
(in October 2002) to all ISFSI licensees to ensure that a consistent overall protec-
tive strategy was in place for all ISFSIs. On December 18, 2007, the Commission
directed Office of Nuclear Security and Incident Response (NSIR) staff to develop
risk-informed and performance-based regulations to enhance security requirements.
The Commission also directed NSIR staff to undertake a rulemaking to update the
security requirements. NRC staff have received public comment on the proposed
security rules. Public stakeholders have raised concerns that the proposed rules do
not sufficiently emphasize anti-terrorism capabilities.

The audit objective is to determine the adequacy of NRC’s oversight of ISFSI
security. (Addresses Management and Performance Challenge #4)




                                                                   April 1, 2010 - September 30, 2010   29
                   FY 2010 Evaluation of FISMA
                   OIG Strategic Goal: Security

                   The Federal Information Security Management Act (FISMA) was enacted on
                   December 17, 2002. FISMA permanently reauthorized the framework laid out in
                   the Government Information Security Reform Act, which expired in November
                   2002. FISMA outlines information security management requirements for agen-
                   cies, including the requirement for an annual review and annual independent
                   assessment by agency IGs. In addition, FISMA includes new provisions such
                   as the development of minimum standards for agency systems, aimed at further
                   strengthening the security of Federal Government information and information
                   systems. The annual assessments provide agencies with the information needed
                   to determine the effectiveness of overall security programs and to develop
                   strategies and best practices for improving information security.

                   The evaluation objectives are to assess (1) the adequacy of NRC’s information
                   security programs and practices for NRC major applications and general support
                   systems of record for FY 2010, (2) the effectiveness of agency information
                   security control techniques, and (3) the implementation of the NRC’s corrective
                   action plan created as a result of the FY 2009 headquarters and regional FISMA
                   program reviews. (Addresses Management and Performance Challenge #5)



                   Audit of NRC’s Implementation of Homeland Security Presidential
                   Directive-12
                   OIG Strategic Goal: Security

                   The Executive Branch of Government requires agencies to apply Homeland
                   Security Presidential Directive-12 (HSPD-12) to Federal employees, contractors,
                   and affiliates requiring long-term access to Federal facilities and information
                   systems. This initiative employs electronically validated identity credentials to
                   achieve secure access and interoperability among Federal agencies. In 2009, the
                   Government’s Chief Information Officer Council issued Federal Identity,
                   Credential, and Access Management (FICAM) Roadmap and Implementation Guidance
                   to Federal agencies to maximize and aggressively pursue the use of credentials
                   and to plan and implement Identity, Credential, and Access Management (ICAM)
                   programs in FY 2010.

                   A standard such as FICAM is too broad to represent the unique risk
                   requirements of individual agencies, which must be derived from individual
                   risk assessments representing the desired security profiles of each. In 2008,
                   NRC conducted an independent survey and developed an Identity and Access
                   Management Strategy Framework document to identify key focus areas for their
                   HSPD-12 strategy; provide actionable recommendations; and identify priorities,




30   NRC OIG Semiannual Report to Congress
solutions, and a high-level timeline. Currently, NRC is deploying some of the
ICAM-related efforts identified in the ICAM Strategy Framework document.

The audit objective is to assess whether NRC has effectively established and
implemented the required ICAM program. (Addresses Management and
Performance Challenge #5)



Audit of NRC’s Non-Concurrence Process
OIG Strategic Goal: Safety

NRC promotes discussion and consideration of differing views in the
preparation and review of agency documents. NRC managers and staff have
various mechanisms for expressing their views about agency decisions. The
Non-Concurrence Process applies to all documents undergoing concurrence and
applies equally to administrative issues, policy issues, and technical concerns.

The objectives of the Non-Concurrence Process are to (1) promote discussion
and consideration of differing views on documents in the concurrence process,
(2) provide a non-concurrence option for individuals with concerns about
documents in the concurrence process that they had a role in creating or
reviewing, and (3) provide a uniform approach to processing non-concurrences.

According to a former Executive Director for Operations, “Non-concurrence
should be viewed as a routine option in the NRC’s document concurrence
process. All employees have a responsibility to raise concerns as early as possible
in the document preparation and review process, engage in discussions and seek
solutions before non-concurrences are initiated. The Non-Concurrence Process
is another tool the agency can use to foster an environment in which the views of
all employees are welcome, even when they differ from those of management.”

The audit objective will be to assess the effectiveness of how NRC dispositions
issues objected to through the Non-Concurrence Process. (Addresses
Management and Performance Challenge #2)




                                                                 April 1, 2010 - September 30, 2010   31
32   NRC OIG Semiannual Report to Congress
Investigations
During this reporting period, OIG received 110 allegations, initiated 23 investigations,
and closed 38 cases. In addition, the OIG made 22 referrals to NRC management and
two to the Department of Justice.

INVESTIGATIVE CASE SUMMARIES
Essential Service Water Leak at Byron Nuclear Power Plant
OIG Strategic Goal: Safety

OIG conducted an investigation into
a leak that occurred in the essen-
tial service water system (ESW), a
significant safety system, at the Byron
Nuclear Station (Byron) on October
19, 2007. This leak necessitated
a 12-day shutdown of both reac-
tors located at that site. This was a
significant event, and NRC initiated
a Special Inspection Team (SIT) soon
after the shutdown to evaluate licensee
actions surrounding the ESW failure.         Byron nuclear power plant. Photo courtesy Exelon Nuclear
The SIT found that the licensee had
not taken timely corrective action to correct degradation in ESW piping, and
that a licensee analysis of the degradation’s impact was faulty.

Byron has a safety related heat removal system that is used to remove decay heat
and cool critical components during accident conditions. At Byron, the ESW
fulfills these safety functions. The ESW cooling tower consists of eight sepa-
rated cells. Each cooling tower cell contains a fan and spray nozzles. The pipes
that convey the heated ESW water into each cooling tower cell are 24 inches in
diameter, made of carbon steel, and have a nominal pipe wall thickness of 0.375
inches. The pipes (pipe risers) emerge from the ground through a concrete floor,
which is located inside a concrete valve vault.

OIG found that between March 2007 and October 2007, Byron staff conducted
a series of inspections of the pipe riser, identified progressive thinning of the pipe
wall had resulted in wall thickness that was less than the established standard, and
four times reduced the minimum value for allowed riser pipe wall thickness: first
from 0.375 to 0.153 inches, then from 0.153 to 0.121 inches, again from 0.121 to
0.06 inches, and finally from 0.06 inches to 0.03 inches.

OIG learned that the degradation of the pipe risers as well as the licensee’s
actions to evaluate and correct the degradation was documented in Byron’s
Corrective Action Program (CAP). The two NRC resident inspectors who
worked at Byron during the months leading up to the leak both stated that they
reviewed every CAP issue report that Byron generated. The senior resident
inspector recalled thinking in September 2007 that there were an unusually high

                                                                      April 1, 2010 - September 30, 2010   33
                   number of issue reports on the ESW piping degradation, perhaps as many as a
                   dozen. However, he told OIG he did not follow up on this information prior to
                   the leak because he believed the degradation was minor surface corrosion and
                   that the licensee was addressing the issue appropriately.

                   OIG learned that the NRC senior resident inspector learned about the extent of
                   the degradation on October 17, 2007, 2 days before the leak.

                   This investigation determined the following:

                   •	 The NRC oversight of licensee operability decisionmaking was not successful
                      in learning of the steady reduction in margin of wall thickness of the ESW
                      piping over a 7-month period until just 2 days before pipe failure.

                   •	 Although the Byron resident inspectors carried out routine oversight respon-
                      sibilities in accordance with agency requirements, the licensee’s failure to
                      analyze a problem correctly resulted in the resident inspectors’ lack of aware-
                      ness of a significant problem with the ESW.

                   •	 Although NRC inspection guidance conveys an expectation that resident
                      inspectors should be aware of the status of safety systems, it was not specific
                      enough to result in effective oversight of the degraded ESW by the resident
                      inspectors. (Addresses Management and Performance Challenges #1 and #2)



                   NRC Role Regarding Backup Power Emergency Notification System
                   Mandated by the Energy Policy Act of 2005
                   OIG Strategic Goal: Safety and Security

                   OIG conducted an investigation based on a letter sent to the Department of
                   Homeland Security (DHS) OIG from four members of Congress regarding
                   implementation of a new ENS at Indian Point Nuclear Power Plant (Indian
                   Point). The letter expressed concern about the oversight exercised by FEMA and
                   the relationship between FEMA and NRC during the implementation of modi-
                   fications of backup power to the ENS, which was required by the Energy Policy
                   Act of 2005 (EPA).

                   On August 8, 2005, the EPA was enacted, which, in part, required that Indian
                   Point implement a backup power to its ENS. Although the EPA required that
                   Indian Point’s license operator, Entergy, modify the existing ENS to provide for
                   backup supply, Entergy decided to install a completely new state of the art system
                   that had not been installed at any other nuclear power plant, which increased the
                   size and scope of the effort.

                   The NRC Office of the General Counsel reviewed the EPA and advised NRC
                   Commissioners that the agency had 18 months to issue a requirement to Indian
                   Point requiring the plant to obtain the necessary backup power. Consequently,


34   NRC OIG Semiannual Report to Congress
on January 31, 2006, the Commission issued Confirmatory Order EA-05-190
to Entergy, requiring that backup power for the ENS be installed and opera-
tional by January 30, 2007. Entergy subsequently requested two extensions of
the confirmatory order. NRC granted the first extension, but denied the second
extension request.

The NRC issued a Severity Level III violation to Entergy with an escalated civil
penalty of $130,000, twice the normal amount for a non-safety issue, for failing
to comply with the confirmatory order requirements. This civil penalty was
based on circumstances that were considered to be under Entergy’s control (i.e.,
project management). NRC issued an additional civil penalty against Entergy in
the amount of $650,000 in January 2008, prior to the completion of corrective
action by Entergy.

OIG determined that NRC met the EPA’s mandate to NRC to require that
backup power be available for Indian Point’s ENS by (1) issuing Confirmatory
Order EA-05-190, dated January 31, 2006, requiring Indian Point to install
backup power for the system within a year of the order, and (2) initiating the
enforcement process when Indian Point did not comply. (Addresses Management
and Performance Challenges #1 and #2)



Documents Related to Development of SECY 08-0147
OIG Strategic Goal: Corporate Management

OIG conducted an investigation based on a request from a former NRC
Chairman regarding the development of NRC SECY 08-0147, “Response to
Commission Order CLI-05-20 Regarding Depleted Uranium.” Specifically,
OIG was requested to review whether individual NRC staff members involved
in the development of the SECY felt they could pursue the agency’s differing
professional view and differing professional opinion program if they disagreed
with the SECY paper presented to the NRC Commission.

The NRC encourages employees to make known their best professional judg-
ments even though they may differ from a prevailing staff view, disagree with a
management decision or policy position, or take issue with proposed or estab-
lished agency practices. To foster this policy, and create an atmosphere for an
exchange of views of a technical nature, the agency has in place the Differing
Professional View (DPV) and Differing Professional Opinion (DPO) program,
which is delineated in internal guidance, Management Directive 10.159, Differing
Professional Views and Opinions.

This investigation determined that SECY 08-0147, submitted to the Commission
in October 2008, responded to a 2005 commission order to the NRC staff to
consider options for disposal of depleted uranium (DU). In response to the SECY
paper, the Commission accepted the staff’s recommended courses of action which
was to (1) proceed with rulemaking in 10 CFR Part 61, to specify a require-


                                                               April 1, 2010 - September 30, 2010   35
                   ment for a site-specific analysis for the disposal of large quantities of DU, and (2)
                   develop a guidance document for public comment that outlines the parameters
                   and assumptions to be utilized in the conduct of such a site analysis.

                   OIG found that NRC’s process for developing SECY 08-147 did not prevent
                   or discourage NRC staff members from expressing varying views held by staff
                   involved in the process. While several participants involved in the development
                   of the SECY paper disagreed with the paper’s conclusion, they chose not to
                   pursue the DPV or DPO program. Furthermore, the other participants within
                   the process confirmed that differing views were considered. (Addresses
                   Management and Performance Challenges #1 and #7)



                   Potential Conflict of Interest between the NRC and Contractors/
                   Subcontractors Utilized by the Information Systems Laboratories, Inc.
                   OIG Strategic Goal: Safety

                   OIG completed an investigation into an allegation concerning the legality of an
                   NRC contract with Information Systems Laboratories, Inc. (ISL), a company
                   that was contracted to review license applications submitted to NRC by utility
                   companies requesting to build new nuclear power plants. This investigation
                   addressed (1) whether NRC’s contract with ISL involves activities that are inher-
                   ently governmental and therefore should be performed by NRC employees, and
                   (2) whether ISL was free of organizational conflicts of interest as it conducts
                   reviews of highly technical issues that license applicants have also contracted out
                   to evaluate as part of their applications to the NRC.

                   The Federal Acquisitions Regulations subpart 7.5 prescribes policies and proce-
                   dures to ensure that inherently governmental functions are not performed by
                   contractors. “Inherently governmental function” means, as a matter of policy, a
                   function that is so intimately related to the public interest as to mandate perfor-
                   mance by Government employees. The Standard for Evaluation of Potential
                   Conflict of Interest are prescribed in 48 CFR 2009.570-3(b)(1) and are used
                   to determine whether there are conflicting roles that might bias an offeror’s or
                   contractor’s judgment in relation to their work with the government, and ensure
                   that the offeror or contractor are not given an unfair competitive advantage
                   based on the performance of the contract.

                   In 2007, NRC entered into a 5-year, $33,852,575 contract with ISL to provide
                   technical expertise and assistance in support of design certification, early site
                   permit, combined license, environmental, and pre-application activities related
                   to new reactor license applications for the Westinghouse AP 1000 design.
                   According to the NRC statement of work, the agency did not have the ability to
                   complete the technical reviews of all the license applications in a productive and
                   efficient manner. Thus, ISL would be required to support all the technical facets
                   of new reactor licensing reviews.



36   NRC OIG Semiannual Report to Congress
This investigation determined that the contract work NRC requested from
ISL was not an inherently governmental function because (1) ISL contractors
and subcontractors serve as technical assistants, (2) NRC staff reviews all tasks
completed by the contractor employees, and (3) NRC staff make the decisions
relative to the license applications.

The investigation also determined that there was no conflict of interest posed
by NRC utilizing ISL contractor and subcontractor employees as subject matter
experts who had also previously assisted licensees with their new reactor appli-
cations. OIG compared the names and employment dates of four new reactor
license applicants who had submitted applications to NRC as of April 17, 2009,
with the names of all ISL contractor and subcontractor employees involved in
the review of the new reactor license applications on behalf of NRC. OIG found
that although contractor and subcontractor employees were working for ISL to
review new reactor applications on behalf of the NRC, they were not reviewing
the same applications that they helped to prepare. (Addresses Management and
Performance Challenge #3)



Incomplete Information Provided by Constellation Energy
Nuclear Group
OIG Strategic Goal: Corporate Management

OIG completed an investigation into an allegation that Constellation Energy
Nuclear Group (CENG) withheld material financial information from NRC
regarding its corporate restructuring with Electricite de France (EDF) when
it submitted an application for an indirect license transfer. Specifically, OIG
examined whether NRC staff were pressured or acted inappropriately in
connection with the agency’s decision to award the transfer license to CENG,
or had knowledge that the license application was incomplete.

OIG learned that on January 22, 2009, CENG submitted an application for
an indirect license transfer of CENG’s ownership and operating interest in
several nuclear power plants as a result of a proposed corporate restructuring
and planned investment by EDF Development. Under this arrangement, EDF
would acquire a 49.99 percent ownership interest in CENG. CENG also
requested NRC approval to change to the corporate name of one of the
nuclear power plants.

NRC staff reviewed the application, conducted a safety evaluation, and issued
orders that approved the transfer on October 9, 2009. However, CENG
wanted to proceed with the corporate name change, prior to completing the
rest of the transfer. Because the transfer now appeared to be taking place in at
least two parts, the NRC staff requested that CENG provide more information
to the NRC.




                                                                  April 1, 2010 - September 30, 2010   37
                   OIG learned that NRC staff was concerned that the final corporate structure
                   might be different than what was conveyed in the license transfer application
                   which had been reviewed and approved by the staff, and that CENG’s intended
                   actions were different than previously stated. Subsequently, CENG provided
                   more information to NRC regarding the timing and process related to the
                   planned merger and corporate restructuring.

                   This investigation determined that the staff was not pressured and did not act
                   inappropriately to approve CENG’s license application. Rather, OIG found that
                   once NRC staff learned of problems with the completeness of CENG’s license
                   application, they suspended their initial orders approving the transfer until
                   complete and accurate information regarding the company’s financial and
                   operational structure was provided to NRC. (Addresses Management and
                   Performance Challenges #2 and #7)




38   NRC OIG Semiannual Report to Congress
    Summary of OIG Accomplishments
            INVESTIGATIVE STATISTICS
            Source of Allegations — April 1, 2010, through September 30, 2010
                    NRC Employee                                                                   24
                NRC Management                            8

        Other Government Agency          1

                        Intervenor                    7

                    General Public                                                       19

           OIG Investigation/Audit                    7

               Regulated Industry                     7

                      Anonymous                                                                              31

                    Congressional            2

                            Media                3

                       Contractor        1

                                     Allegations resulting from Hotline calls: 40

                                                                            Total 110


            Disposition of Allegations — April 1, 2010, through September 30, 2010

                                Total                                               110
              Closed Administratively                         51

        Referred for OIG Investigation               24
Referred to NRC Management and Staff                 22

               Pending Review Action         5

           Correlated to Existing Case           8




                                                                   April 1, 2010 - September 30, 2010   39
                   Status of Investigations

                   DOJ Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                   DOJ Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2
                   DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                   DOJ Declinations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2
                   Sentencing .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
                   NRC Administrative Actions:
                   	    Terminations and Resignations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                   	    Suspensions and Demotions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  3
                   	    Counseling  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
                   	    Recoveries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . $2620.91
                   State Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                   State Accepted .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  0
                   PFCRA Referral .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
                   PFCRA Acceptance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
                   PFCRA Recovery  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . $10,000

                   Summary of Investigations
                   Classification of 		           Opened 	 Closed 	 Cases In
                   Investigations	     Carryover	 Cases	   Cases	 Progress

                   Bribery	                                                        0	               1	               1	             0
                   Conflict of Interest	                                           1	               1	               1	             1
                   External Fraud	                                                 5	               3	               3	             5
                   False Statements	                                               1	               1	               0	             2
                   Misuse of Government Property	                                  1	               0	               1	             0
                   Employee Misconduct 	                                         17	              11	              17	            11
                   Management Misconduct	                                          5	               1	               5	             1
                   Mishandling of Technical Allegations	                           4	               0	               4	             0
                   Whistleblower Reprisal	                                         2	               0	               2	             0
                   Miscellaneous	                                                  0	               2	               1	             1
                   Technical Allegations	                                          1	               1	               1	             1
                   Management Implication Report	                                  1	               0	               1	             0
                   Event Inquiries	                                                2	               2	               1	             3
                   		 Total Investigations	                                     40	               23	             38	             25

                   Other
                   Projects and Proactive Initiatives	                           10	                4	               4	           10


40   NRC OIG Semiannual Report to Congress
AUDIT LISTINGS
Internal Program Audit and Evaluation Reports
Date	        Title	                                              Audit Number

04/23/2010	 Audit of NRC’s Management of Agreements
	           with Department of Energy Laboratories	               OIG-10-A-12

06/09/2010	 Audit of NRC’s Telework Program	                      OIG-10-A-13

06/09/2010	 Audit of NRC’s Process for Closed Meetings	           OIG-10-A-14

07/30/2010	 Audit of NRC Employee Use of Federal
	           Calling Card	                                         OIG-10-A-15

08/30/2010	 Audit of NRC’s Deployment of the
	           National Source Tracking System	                      OIG-10-A-16

09/02/2010	 Audit of NRC’s Oversight of Irradiator Security –
	           Redacted Version For Public Release	                  OIG-10-A-17

09/17/2010	 Assessment of NRC’s Wireless Devices
	           Redacted Version For Public Release	                  OIG-10-A-18

09/17/2010	 Evaluation of NRC’s FOIA Process	                     OIG-10-A-19

09/28/2010	 Audit of NRC’s Vendor Inspection Program	             OIG-10-A-20

09/30/2010	 Audit of NRC’s Oversight of the Access
	           Authorization Program for Nuclear Power Plants
	           Redacted Version For Public Release	                  OIG-10-A-21




                                                                April 1, 2010 - September 30, 2010   41
                   Contract Audit Reports
                   OIG	           Contractor/	            Questioned	   Unsupported
                   Issue Date	    Contract Number	          Costs	         Costs

                   09/27/10	      Energy Research, Inc.
                   	              NRC-04-07-402	              0	             0
                   	              NRC-04-07-483




42   NRC OIG Semiannual Report to Congress
AUDIT RESOLUTION ACTIVITIES

TABLE I
OIG Reports Containing Questioned Costs 15
April 1, 2010, through September 30, 2010
		                                                                                      Questioned	       Unsupported
	        Number of	                                                                        Costs	            Costs
Reports	  Reports	                                                                       (Dollars)	        (Dollars)
A.	       For which no management decision
          had been made by the commencement
          of the reporting period	                                     0	                      0	               0

B.	       Which were issued during the
          reporting period	                                            0	                      0	               0

	         Subtotal (A + B)	                                            0	                      0	               0

C.	       For which a management decision was
          made during the reporting period:

	         (i) 	 dollar value of disallowed costs	                      0	                      0	               0

	         (ii)	   dollar value of costs not disallowed	                0	                      0	               0

D.	       For which no management decision
          had been made by the end of the
          reporting period	                                            0	                      0	               0

E.	       For which no management decision was
          made within 6 months of issuance	                            0	                      0	               0



15
     Questioned costs are costs that are questioned by the OIG because of an alleged violation of
     a provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
     document governing the expenditure of funds; a finding that, at the time of the audit, such costs
     are not supported by adequate documentation; or a finding that the expenditure of funds for the
     intended purpose is unnecessary or unreasonable.




                                                                                  April 1, 2010 - September 30, 2010   43
                   TABLE II
                   OIG Reports Issued with Recommendations
                   That Funds Be Put to Better Use 16
                   	                                                                       Number of	            Dollar Value
                   Reports	                                                                 Reports	              of Funds
                   A.	       For which no management decision	 0	 0
                             had been made by the commencement
                             of the reporting period			

                   B.	       Which were issued during the 	 0	                                                          0
                             reporting period		

                   C.	       For which a management decision was	
                             made during the reporting period:		

                   	             (i) 	 dollar value of recommendations	                          0	                     0
                             	         that were agreed to by management

                   	          (ii) 	dollar value of recommendations 	                            0	                     0
                              	     that were not agreed to by management

                   D.	       For which no management decision had	                               0	                     0
                             been made by the end of the reporting
                             period

                   E.	       For which no management decision was	 0	 0
                             made within 6 months of issuance			
                             	



                   16
                        A “recommendation that funds be put to better use” is a recommendation by the OIG that funds
                          could be used more efficiently if NRC management took actions to implement and complete the
                          recommendation, including: reductions in outlays; deobligation of funds from programs or opera-
                          tions; withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs
                          not incurred by implementing recommended improvements related to the operations of NRC,
                          a contractor, or a grantee; avoidance of unnecessary expenditures noted in pre-award reviews of
                          contract or grant agreements; or any other savings which are specifically identified.




44   NRC OIG Semiannual Report to Congress
TABLE III
Significant Recommendations Described in Previous
Semiannual Reports on Which Corrective Action Has
Not Been Completed
Date	       Report Title	                                                      Number

05/26/03	   Audit of NRC’s Regulatory Oversight of Special 	                OIG-03-A-15		
	           Nuclear Materials

	Recommendation 1: Conduct periodic inspections to verify
  that material licensees comply with material control and
  accountability (MC&A) requirements, including, but not
  limited to, visual inspections of licensees’ special nuclear
  material (SNM) inventories and validation of reported
  information.	




                                                               April 1, 2010 - September 30, 2010   45
Abbreviations and Acronyms
          ADAMS	        Agencywide Documents Access and Management System
          ASME	         American Society of Mechanical Engineers
          CAP	          Corrective Action Program
          CBA	          Collective Bargaining Agreement
          CENG	         Constellation Energy Nuclear Group
          CFR	          Code of Federal Regulations
          CFSI	         Counterfeit, Fraudulent, and Substandard Items
          DHS	          U.S. Department of Homeland Security
          DOE	          U.S. Department of Energy
          DPO	          Differing Professional Opinion
          DPV	          Differing Professional View
          DU	           depleted uranium
          EDF	          Electricite de France
          ENS	          emergency notification system
          EPA	          Energy Policy Act of 2005
          ESW	          essential service water system
          FEMA	         U.S. Federal Emergency Management Agency
          FICAM	        Federal Identity, Credential, and Access Management
          FISMA	        Federal Information Security Management Act
          FSME	         Office of Federal and State Materials and Environmental Management Programs (NRC)
          FY	           Fiscal Year
          HR	           Office of Human Resources (NRC)
          HSPD-12	      Homeland Security Presidential Directive-12
          IAEA	         International Atomic Energy Agency
          IAM	          Issue Area Monitor
          ICAM	         Identity, Credential, and Access Management
          IG	           Inspector General
          ISFSI	        independent spent fuel storage installations
          ISL	          Information Systems Laboratories, Inc.
          MD	           Management Directive
          MOU	          Memorandum of Understanding
          NRC 	         U.S. Nuclear Regulatory Commission
          NRO	          Office of New Reactors (NRC)
          NRR	          Office of Nuclear Reactor Regulation (NRC)
          NSIR	         Office of Nuclear Security and Incident Response (NRC)
          NSTS	         National Source Tracking System
          OCOI	         organizational conflict of interest
          OIG 	         Office of the Inspector General (NRC)
          OIP	          Office of International Programs (NRC)
          SIT	          Special Inspection Team
          SWRI	         Southwest Research Institute
          VA	           U.S. Department of Veterans Affairs


46   NRC OIG Semiannual Report to Congress
Reporting Requirements
The Inspector General Act of 1978, as amended (1988), specifies reporting
requirements for semiannual reports. This index cross-references those
requirements to the applicable pages where they are fulfilled in this report.


Citation	             Reporting Requirements	                                                    Page

Section 4(a)(2) 	     Review of Legislation and Regulations  .  .  .  .  .  .  .  .  .  .  . 6-7

Section 5(a)(1) 	     Significant Problems, Abuses, and Deficiencies .  10-26, 33-38

Section 5(a)(2) 	     Recommendations for Corrective Action  .  .  .  .  .  .  .  .  10-26

Section 5(a)(3) 	     Prior Significant Recommendations Not Yet Completed .  .  .  45

Section 5(a)(4) 	     Matters Referred to Prosecutive Authorities  .  .  .  .  .  .  .  . 40

Section 5(a)(5) 	     Information or Assistance Refused .  .  .  .  .  .  .  .  .  .  .  .  None

Section 5(a)(6) 	     Listing of Audit Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  41-42

Section 5(a)(7)	      Summary of Significant Reports .  .  .  .  .  .  .  .  .  10-26, 33-38

Section 5(a)(8)	      Audit Reports — Questioned Costs .  .  .  .  .  .  .  .  .  .  .  .  .  43

Section 5(a)(9)	      Audit Reports — Funds Put to Better Use  .  .  .  .  .  .  .  .  . 44

Section 5(a)(10)	     Audit Reports Issued Before Commencement
	                     of the Reporting Period for Which No
	                     Management Decision Has Been Made .  .  .  .  .  .  .  .  .  None

Section 5(a)(11) 	 Significant Revised Management Decisions .  .  .  .  .  .  .  None

Section 5(a)(12) 	 Significant Management Decisions With
	                  Which the OIG Disagreed .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  None


Public Law 111-203, the Dodd-Frank Wall Street Reform and Consumer
Protection Act, requires IGs to include their peer review results as an appendix
to each Semiannual Report to Congress.

Section 989C	         Peer Review Information  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48




                                                                                 April 1, 2010 - September 30, 2010   47
Appendix
                   PEER REVIEW INFORMATION

                   The OIG Audit and Investigative programs are peer reviewed every 3 years.



                   AUDITS

                   The NRC OIG Audit program was peer reviewed most recently by the U.S.
                   Small Business Administration Office of Inspector General. The peer review
                   final report, dated August 24, 2009, reflected that NRC OIG received a peer
                   review rating of pass. This is the highest rating possible based on the available
                   options of pass, pass with deficiencies, or fail.



                   INVESTIGATIONS

                   The NRC OIG Investigative program was peer reviewed most recently by
                   the U.S. Department of State Office of Inspector General. The peer review
                   final report, dated July 6, 2010, reflected that the NRC OIG is in compliance
                   with the quality standards established by the President’s Council on Integrity
                   and Efficiency/Executive Council on Integrity and Efficiency and the Attorney
                   General guidelines.




48   NRC OIG Semiannual Report to Congress
NRC OIG’S STRATEGIC GOALS
1. S
    trengthen NRC’s efforts to protect public health and safety
   and the environment.
2. E nhance NRC’s efforts to increase security in response to an
    evolving threat environment.
3. I ncrease the economy, efficiency, and effectiveness with
    which NRC manages and exercises stewardship over its
    resources.
               REGU
           EAR     LA
         CL          T




   NU




                        OR
STATES




                          YC
                         OMMI S
 ED




                         SI
    IT




                         O
                    N
         UN




The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
t$POUSBDUBOE1SPDVSFNFOU*SSFHVMBSJUJFT       t"CVTFPG"VUIPSJUZ
t$POnJDUTPG*OUFSFTU                          t.JTVTFPG(PWFSONFOU$SFEJU$BSE
t5IFGUBOE.JTVTFPG1SPQFSUZ                  t5JNFBOE"UUFOEBODF"CVTF
t5SBWFM'SBVE                                  t.JTVTFPG*OGPSNBUJPO5FDIOPMPHZ3FTPVSDFT
t.JTDPOEVDU                                    t1SPHSBN.JTNBOBHFNFOU


Ways to Contact the OIG
                                  Call:
                                  OIG Hotline
                                  1-800-233-3497
                                  TDD: 1-800-270-2787
                                  7:00 a.m. – 4:00 p.m. (EST)
                                  After hours, please leave a message


                                  Submit:
                                  0O-JOF'PSN
                                  www.nrc.gov
                                  $MJDLPO*OTQFDUPS(FOFSBM
                                  $MJDLPO0*()PUMJOF



                                  Write:
                                  U.S. Nuclear Regulatory Commission
                                  0GmDFPGUIF*OTQFDUPS(FOFSBM
                                  Hotline Program, MS O5 E13
                                  11555 Rockville Pike
                                  Rockville, MD 20852-2738


NUREG-1415, Vol. 23, No. 1
October 2010
